COMPUTER SECURITY OF
GRANT MANAGEMENT AND
  PAYMENT SYSTEMS
  Federal Transit Administration

   Report Number: FI-2003-093
 Date Issued: September 30, 2003
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Computer Security of Grant                Date:    September 30, 2003
           Management and Payment Systems, Federal
           Transit Administration
           FI-2003-093

  From:    Alexis M. Stefani                                        Reply to    JA-20
                                                                    Attn. of:
           Principal Assistant Inspector General
            for Auditing and Evaluation
    To:    Chief Information Officer
           Federal Transit Administration

           Associate Administrator for Budget and Policy
           Federal Transit Administration


           This audit report transmits the results of a computer security audit over three
           Federal Transit Administration (FTA) systems that support the grant
           administration and payment process. The audit was conducted by KPMG LLP of
           Washington, D.C. (KPMG), under contract to the Office of Inspector General
           (OIG). KPMG evaluated controls over the Transportation Electronic Award
           Management System (TEAM), Electronic Clearing House Operation System
           (ECHO), and Delphi Online Transaction System (DOTS).
           The integrity of these systems is important because they are used to approve,
           monitor, and pay over $7 billion of annual FTA and Federal Aviation
           Administration grants. To illustrate, the ability of the TEAM and ECHO systems
           to process and pay grants in a timely manner is essential to ensuring compliance
           with the Cash Management Improvement Act, which requires Federal agencies to
           make timely fund transfers and grant awards. Additionally, the systems help
           ensure that sufficient funds are available to cover the grants in accordance with the
           Anti-Deficiency Act principles and that the actual amount paid does not exceed
           the total of the grant award.
           This audit focused on entity-wide security program planning and management,
           access controls, network vulnerabilities, application software development and
                                                                                   2

change controls, system software controls, segregation of duties, and service
continuity. The audit was performed from May to July 2003.

We performed a quality assurance review of the KPMG audit work to determine
compliance with applicable standards. These standards include Government
Auditing Standards prescribed by the Comptroller General of the United States
and the Federal Information Systems Controls Audit Manual (FISCAM)
developed by the General Accounting Office. We agree with KPMG’s findings
and recommendations and, in our opinion, the audit work performed by KPMG
complied with auditing standards. The scope and methodology of our review are
discussed in Exhibit A. KPMG’s audit report is provided as Exhibit B.

RESULTS

Computer security weaknesses exist in FTA’s grant management and payment
systems. Specifically, DOTS, ECHO, and TEAM have security vulnerabilities in
security planning and management, access controls, change controls, and business
continuity planning.     FTA generally concurred with the findings and
recommendations and has initiated corrective actions.

Security Planning and Management

Ø Information technology security planning and management is the foundation
  for establishing adequate system security, and the certification and
  accreditation review is key to ensuring the adequacy of the system security.
  KPMG found that FTA did not properly address certification and accreditation
  requirements. For example, FTA did not perform a security test before
  certifying and accrediting TEAM. KPMG also found that risk assessments and
  security plans were incomplete or not thorough enough for ECHO, DOTS, and
  TEAM. For example, the TEAM risk assessment did not include the
  possibility for common high risk threats such as computer hacking or
  malicious software attacks. FTA agreed to improve security planning and
  management by properly addressing certification and accreditation
  requirements, including completion of security testing, risk assessments, and
  security plans.

Ø KPMG also found inadequate background checks for all 10 financial system
  contractor employees it sampled, and for 1 of the 5 FTA employees it sampled.
  These individuals occupy sensitive positions for operating and maintaining
  mission critical systems but did not receive the proper level of background
  checks as required by DOT policy. For example, one system programmer was
  required to have a full Background Investigation but instead only received a
                                                                                                                     3

        low level fingerprint check. FTA agreed to perform background checks on all
        required contractor and FTA employees.

    Access Controls

    Ø Weaknesses exist in the process for granting, monitoring, and terminating user
      access to FTA financial systems. KPMG found that 9 of the 22 employees
      who were terminated during fiscal year 2003 still had access to TEAM as of
      July 2003. Of the remaining 13, access for 8 employees was not removed
      timely, allowing them system access for up to 4 months after termination.
      KPMG also found that access request forms and security agreements (Rules of
      Behavior) were not completed or adequately enforced. For example, only
      three of seven DOTS users sampled had completed user access request forms,
      and only two of seven DOTS users sampled had signed the security
      agreements. As a result, FTA financial systems are potentially vulnerable to
      unauthorized use, and management may not be able to hold individuals
      accountable for security breaches. Upon notice, FTA immediately removed
      system access for the nine TEAM users terminated and agreed to require Rules
      of Behavior to be signed for all users.

    Ø KPMG’s review identified five high and seven medium vulnerabilities in
      TEAM and DOTS.1 As a result, these systems were vulnerable to attacks by
      DOT employees and contractors. These vulnerabilities existed because FTA
      did not install software patches provided by manufacturers or reconfigure
      existing software settings. FTA corrected these vulnerabilities identified
      during the audit.

    Ø Physical access to the DOTS and ECHO data center is not adequately
        controlled because FTA did not maintain a current list of all those who had
        access to the data center nor had it periodically changed the combination to the
        lock on the door. FTA agreed to maintain a current list of all employees and
        periodically change the combination to the lock on the door.

    System Change Control

    Ø KPMG found that the ECHO system administrator was performing all aspects
      of the system change control process, from programming the change to
      implementing the change on the production computer, with no management
      oversight. There is also a lack of documented procedures for performing
1
     High vulnerabilities may provide an attacker with immediate access into the computer system, such as allowing
    execution of remote commands. Medium vulnerabilities may provide an attacker with useful information, such as
    password files, to compromise DOT computers.
                                                                                      4

   technical system maintenance work.       This results in a “key person
   dependency” on the current system administrator and could lead to
   unauthorized software changes if compensating controls are not established.
   FTA agreed to increase management oversight of and develop documented
   procedures for ECHO technical maintenance.

Ø DOTS and ECHO system software changes were not documented. For
  example, there was no documentation of test plans, test results, or user
  approval for changes made in the systems. As a result, management has no
  assurance that only authorized, and properly tested, system changes were
  made. FTA agreed to document DOTS and ECHO system software changes.

Disaster Recovery and Business Continuity Planning
Ø FTA has not conducted a business impact analysis, the fundamental first step
  in planning for contingencies, for these three systems. As a result, FTA does
  not know how long it could perform grant operations without computer system
  support. FTA cannot properly plan or test for a disaster without this analysis.
  FTA has agreed to conduct a business impact analysis for ECHO, DOTS, and
  TEAM.
Ø The existing contingency plans for ECHO and DOTS are not adequate to
  ensure continued operations in case of a disaster. The recovery processing site
  is not properly equipped and has never been tested. Also, the distance between
  the primary and recovery processing sites is only 25 miles, which may not be
  adequate separation in case of a large scale disaster. In addition, there are not
  adequately detailed procedures or trained backup personnel for disaster
  recovery operations. FTA has agreed to perform disaster recovery testing for
  ECHO and DOTS.
RECOMMENDATIONS
KPMG provided detailed recommendations to FTA management, which are
included in Exhibit B. While we are not making any additional recommendations,
in our opinion, the following are key action items that FTA officials should
implement on a priority basis.
1. Test and evaluate security controls in TEAM and develop more comprehensive
   risk assessments and security plans for all three systems.

2. Complete the appropriate background checks on the Federal and contractor
   employees KPMG identified.
                                                                                      5

3. Develop procedures for granting, removing, and periodically revalidating user
   access, and enforce use of access request forms and security agreements (Rules
   of Behavior) before granting system access.

4. Regularly scan FTA financial system computers for vulnerabilities and timely
   install software patches provided by manufacturers or reconfigure software
   settings.

5. Enhance physical access controls over the ECHO and DOTS computer room
   by maintaining a list of individuals authorized to enter the data center and
   changing the combination to the lock on a periodic basis.

6. Increase management oversight of, and develop documented procedures for,
   ECHO system maintenance work.

7. Require that test plans, test results, and user approvals for ECHO and DOTS
   system changes be documented.

8. Enhance the contingency plans with a business impact analysis and detailed
   disaster recovery procedures including personnel roles and emergency
   notification for all three systems.

9. Test disaster recovery processes for ECHO and DOTS, and determine whether
   the recovery site is distant enough to ensure continued operations in case of
   large scale disasters.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On September 29, 2003, FTA provided comments (see Appendix) to our
September 24, 2003 draft report. FTA concurred with all nine recommendations
but needs clarify its response to recommendations 1, 8, and 9. Further, while FTA
indicated for some of the recommendations that actions would be initiated or
completed in fiscal years 2004 or 2005, we request that more specific action
completion dates be provided.

Regarding recommendation 1, FTA has agreed to perform comprehensive risk
assessments and update the security plans for all three systems. The response
provides a commitment to perform a security test and evaluation for ECHO and
DOTS. However, the reply does not address the need to test and evaluate security
controls in TEAM and we request that FTA provide us its plans for testing TEAM.
Further, based on the criticality of this requirement, we suggest that FTA complete
this management action during fiscal year 2004.
                                                                                      6


In response to recommendation 8, FTA agreed with our recommendation to
enhance the contingency plan of TEAM by performing a business impact analysis
and including roles and emergency notification procedures. However, while FTA
committed to developing step-by-step details for ECHO and DOTS disaster
recovery, we request that FTA provide us its plans to address the business impact
analysis of these two systems.

Regarding recommendation 9, FTA agreed to relocate backup equipment for
ECHO and DOTS to utilize an existing DOT facility as the permanent alternate
site for the two systems. However, we request that FTA provide us with an action
plan for testing the disaster recovery processes for ECHO and DOTS.

ACTION REQUIRED

In accordance with DOT Order 8000.1C, we request that you clarify your response
to recommendations 1, 8, and 9 and provide specific corrective action dates for all
nine recommendations. We would appreciate receiving your written comments on
this report within 30 days.

We appreciate the courtesies and cooperation of FTA and KPMG representatives.
If you have questions concerning this report, please call me at (202) 366-1992 or
Ted Alves, Assistant Inspector General for Financial and Information Technology
Audits, at (202) 366-1496.

                                        #
                                                                                     7

EXHIBIT A. SCOPE AND METHODOLOGY

Under contract with OIG, KPMG conducted an audit of computer security and
controls for three information systems at FTA Headquarters and a contractor site
in Herndon, Virginia. The audit covered fiscal year 2003 activities and was
conducted from May to July 2003.
OIG and KPMG met to discuss the project scope and objectives. KPMG
conducted the review based on an OIG-approved audit plan including interviews,
reviews of documentation, observations of procedures, testing of control features,
and scanning for network vulnerabilities.
OIG performed a quality assurance review of the KPMG audit work to determine
compliance with applicable standards. Using a review guide provided by the
President’s Council on Integrity and Efficiency, we reviewed KPMG’s audit
program, conducted weekly status meetings with them to evaluate their progress,
participated in meetings and briefings they had with FTA management, monitored
their vulnerability testing, and reviewed their workpapers and audit findings.
Based on our review, we determined KPMG conducted this audit in accordance
with Government Auditing Standards prescribed by the Comptroller General of
the United States, the General Accounting Office’s Federal Information System
Controls Audit Manual, and supplemental KPMG review guidelines.
EXHIBIT B. KPMG AUDIT REPORT ON COMPUTER SECURITY AND CONTROLS OF FTA                                       8
GRANT MANAGEMENT AND PAYMENT SYSTEMS




September 30, 2003


Mr. Kenneth Mead
U.S. Department of Transportation
Office of Inspector General
400 Seventh Street SW
Washington, D.C. 20590


Dear Mr. Mead:

KPMG LLP (KPMG) is pleased to submit this final report that summarizes our review of three Federal
Transit Administration (FTA) systems supporting the grant award, administration and payment processes.
KPMG LLP was contracted by the Office of Inspector General to conduct this review in support of the
Fiscal Year (FY) 2003 financial statement audit required by the Chief Financial Officer’s Act of 1990, as
amended by the Government Management Reform Act of 1994.

Our review included evaluating controls over the Transportation Electronic Award Management System
(TEAM), Electronic Clearing House Operation System (ECHO), and Delphi Online Transaction System
(DOTS). We performed our review using guidance outlined in the General Accounting Office (GAO)
Federal Information System Controls Audit Manual (FISCAM). We evaluated the controls over these
systems from the period May 22, 2003 through July 31, 2003. The report describes the scope and
objectives of our review as well as a detailed discussion of information technology concerns that the
Federal Transit Administration (FTA) should address.

We appreciate the opportunity to provide information technology audit services to the Office of Inspector
General and look forward to serving you in the future. Should you have any questions, please contact me
at (202) 533-3024 or Geoffrey L. Weber, Senior Manager, at (202) 533-4344.

Very truly yours,




Attachment




EXHIBIT B. KPMG AUDIT REPORT ON COMPUTER SECURITY AND CONTROLS OF FTA
GRANT MANAGEMENT AND PAYMENT SYSTEMS
                                                                                                       9
                                                                        DOTS, ECHO, and TEAM
                                                                         General Controls Review




Office of Inspector General
U.S. Department of Transportation




                               Federal Transit Administration
                   General Controls Review of the DOTS, ECHO and TEAM
                          Financial and Grant Management Systems




EXHIBIT B. KPMG AUDIT REPORT ON COMPUTER SECURITY AND CONTROLS OF FTA
GRANT MANAGEMENT AND PAYMENT SYSTEMS
                                                                                                   1
                                                                                                                    10
                                                                                     DOTS, ECHO, and TEAM
                                                                                      General Controls Review

INTRODUCTION

The mission of the FTA is to support the goal of promoting the development and use of mass transit in the
United States. The FTA is responsible for the administration of the program budget, the evaluation of
grant applications for financial assistance, the grant award process, and oversight of transportation grants
for mass transportation projects across the United States. During FY 2002, FTA disbursed over seven
billion dollars to grantees for transit projects.

The Transportation Electronic Award Management System (TEAM) is the authoritative source for
information concerning program budget execution, status of grant applications, awarded grant amounts
and FTA dollar commitments. The Electronic Clearing House Operation System (ECHO) is used to
process grantee draw down requests, totaling over seven billion dollars annually, and provides FTA
Accounting with decision support over balances available and amounts. The Delphi Online Transaction
System (DOTS) is FTA’s reporting system, which is used to generate and customize financial reports.

Due to their criticality, the ability of the TEAM and ECHO systems to process and pay grants in a timely
manner is essential to ensuring compliance with the requirements of the Cash Management Improvement
Act of 1990. Additionally, the systems help to ensure compliance with the Anti-Deficiency Act by
ensuring that payments do not exceed the established grant award amount.

This report presents the results of our audit of security controls over three Federal Transit Administration
(FTA) systems that support the grant administration and payment processes. The integrity of these
systems is important because they are the primary means of tracking and accounting for over seven billion
dollars in FTA grants annually. We conducted this audit in support of the Fiscal Year (FY) 2003 financial
statement audit as required by the Chief Financial Officer’s Act of 1990, as amended by the Government
Management Reform Act of 1994.

OBJECTIVES, SCOPE and METHODOLOGY

Our objectives were to evaluate the computer security and controls of three FTA systems used to approve,
monitor, and pay grants for transportation projects. These systems include the TEAM, ECHO, and
DOTS. The ECHO system is also utilized by the Federal Aviation Administration to support grant
payments to airport authorities. The focus of our review was the entity-wide security program planning
and management, access controls, network vulnerabilities, application software development and change
controls, system software controls, segregation of duties, and service continuity.

Guidance for our review was provided from the General Accounting Office (GAO) Federal Information
System Controls Audit Manual (FISCAM). Our approach for assessing the management and operational
controls consisted of interviews with knowledgeable FTA personnel, policy and procedure review,
selected system testing, and document analysis regarding specific control objectives that collectively
constitute the minimum components of an effective information security program. The control objectives
were drawn directly from long-standing requirements found in Federal law, DOT requirements, regulatory
and technical criteria, and other Federal policy on security and privacy. Our approach for the assessment
of the technical control areas focused on the System Administration Networking and Security (SANS)
Top Twenty System Security Flaws, in addition to the Federal best practices. Network security software
scans were performed at both the network level and host level and then analyzed for vulnerabilities.


EXHIBIT B. KPMG AUDIT REPORT ON COMPUTER SECURITY AND CONTROLS OF FTA                                           2
GRANT MANAGEMENT AND PAYMENT SYSTEMS
                                                                                                                    11
                                                                                     DOTS, ECHO, and TEAM
                                                                                      General Controls Review



RESULTS

We found weaknesses regarding the security program for DOTS, ECHO and TEAM:

   Weak security planning and management for FTA financial systems poses a risk that vulnerabilities
   may not be identified and corrected in a timely manner.
   Weak system access controls may lead to unauthorized usage of FTA financial systems.
   Weaknesses in the change control process for FTA financial systems may lead to erroneous or
   malicious code being introduced into the operating environment.
   Service continuity planning over FTA financial systems is not adequate to sustain operations in the
   event a service disruption occurs.

We provided summaries of individual weaknesses to FTA officials during the course of the audit. These
officials generally agreed with the findings and committed to implementing the recommendations.

We conclude that these weaknesses represent deficiencies in the design or operation of the internal control
structure, which could affect the FTA’s ability to record, process, summarize, and report financial data
consistent with the assertions of management in the financial statements. While we did identify
weaknesses, we did not find any evidence of fraud, abuse, or misuse within DOTS, ECHO or TEAM.
Furthermore, we reviewed the payment process between the FTA and the grantee and no weaknesses were
noted. However, our review procedures were not designed to specifically identify fraud, waste, and
abuse. Instead, they were designed to identify potential control deficiencies that could lead to fraud,
waste, and abuse.

   Weak security planning and management for FTA financial systems poses a security risk

The Certification & Accreditation (C&A) process includes operations that protect and defend information
and systems by ensuring their confidentiality, integrity, and availability. Ensuring that appropriate
security objectives are developed and that the security risks are identified and balanced against
operational demands is a fundamental management responsibility. Weaknesses in this process create a
risk that the systems will be vulnerable to unknown security weaknesses. Our review of planning
documents showed that FTA did not properly address key requirements within DOT certification and
accreditation guidance, such as requirements to conduct risk assessments, prepare security plans, and
perform security tests and evaluations. To illustrate, FTA did not perform a security test and evaluation to
accredit TEAM, which is a fundamental requirement of the certification and accreditation process. TEAM
should not have been certified and accredited without this evaluation.

In addition, FTA employees and contractors have inadequate background checks and out–of-date position
descriptions that do not describe any security responsibilities. We found that all ten financial systems
contractors and one of five FTA administrator background checks that we reviewed were inadequate. In
these cases, the background check performed by FTA was not sufficient to meet the position’s sensitivity
level. For example, one system administrator required a background investigation, but had a low-level
fingerprint check.



EXHIBIT B. KPMG AUDIT REPORT ON COMPUTER SECURITY AND CONTROLS OF FTA
GRANT MANAGEMENT AND PAYMENT SYSTEMS                                                                            3
                                                                                                                   12
                                                                                    DOTS, ECHO, and TEAM
                                                                                     General Controls Review

These weaknesses exist because FTA management did not follow DOT guidelines for certification and
accreditation, including specific requirements to perform a security test and evaluation of TEAM before
accrediting the system. Also, FTA did not follow policy regarding personnel controls, such as DOT
requirements for proper background investigations. Without adequate procedures regarding security
planning and personnel controls, FTA could be unknowingly accepting high-risk vulnerabilities that could
lead to fraud, loss, or unauthorized modification of data.

   Security Test & Evaluation (ST&E). An ST&E is a method for agency officials to determine the
   current status of their information security programs and, where necessary, establish a target for
   improvement. This is one of the fundamental requirements leading to a certification and accreditation.
   We found that a ST&E was not performed as part of the certification and accreditation process for the
   TEAM system. As a result, the TEAM system was accredited to operate without the results of a
   ST&E. By not performing a ST&E, management cannot have an understanding of the true status of
   controls in order to make a decision as to whether risks are properly mitigated or acceptable.
   Vulnerabilities documented in this report should have been identified during an adequately performed
   ST&E, prior to the certification and accreditation.

   FTA performed the ST&E for its financial systems by using a checklist of over 200 questions that was
   developed by the National Institute of Standards and Technology (NIST). Within this checklist for
   ECHO and DOTS, we identified at least ten steps in each document that were marked as passed,
   pending, or not applicable that, based on the detailed notes supporting those responses, should have
   failed. For example, the system ST&E calls for a review to determine whether the contingency plan is
   periodically tested, which is a critical component of security management. However, the ST&E
   results state that this item is pending, and the response is noted as not applicable even though testing
   has not been performed. Steps were missing when compared to the NIST checklist without an
   explanation. Furthermore, there was no supporting documentation available for any of the steps that
   were marked as having passed.

   Background checks. Background checks are important since they help to determine whether a
   particular individual is suitable for a given position. FTA employees and many contractors have
   inadequate background checks. We examined key IT management positions such as security officers,
   system administrators, database administrators, and system managers, and found that all ten
   contractors and one FTA employee we reviewed did not have the level of background checks required
   by DOT. These weaknesses are caused in part because the current process for tracking the
   background checks received by contactors and employees is unreliable. For example, we found that
   the FTA Human Resources security point of contact did not have the ability to identify the employees
   and contractors responsible for development, management, and security for TEAM, who required a
   security clearance.




EXHIBIT B. KPMG AUDIT REPORT ON COMPUTER SECURITY AND CONTROLS OF FTA
GRANT MANAGEMENT AND PAYMENT SYSTEMS                                                                           4
                                                                                                                    13
                                                                                     DOTS, ECHO, and TEAM
                                                                                      General Controls Review



                                                        FTA Employees          Contractors
             Number of Persons Reviewed                      5                     10
             Adequate Background Check                       4                      0
             Inadequate Background Check                     1                     10


   Risk Assessments. The purpose of each risk assessment is to identify all threats and vulnerabilities
   and the corresponding mitigating controls that will decrease their severity. Although risk assessments
   were performed for all three systems, the risk assessments were deficient. For example, we found that
   risk assessments for DOTS and TEAM did not address the existing potential vulnerability of the
   systems administrator or programmer making code changes to the system without management
   knowledge. Additionally, the DOTS risk assessment did not identify vulnerabilities for identified
   threats, the ECHO risk assessment only partially defined and did not describe the mitigating controls,
   and the TEAM risk assessment did not identify high-risk threats such as hackers and malicious
   software attacks. Without adequately completing the risk assessment, FTA could unknowingly be
   accepting high-risk vulnerabilities that could lead to fraud, loss, or unauthorized modification of data.

   Security Plan. The purpose of the security plan is to provide an overview of the security requirements
   of the system and describe the controls in place or planned for meeting those requirements. We noted
   weaknesses in the DOTS, ECHO, and TEAM security plans. We compared the security plans to DOT
   and National Institute of Standards and Technology (NIST) guidance and noted that many of the
   sections were either missing entirely or lacking required information. For example, in each of the
   plans, the rating of confidentiality, integrity, and availability is not made in accordance with the
   categories in the Departmental plan (Mission-critical, financial, budgetary, commercial, etc.) Security
   responsibilities and controls cannot be clearly identified and communicated to system managers and
   users without comprehensive, entity-wide security program plans. The lack of a complete plan may
   cause the FTA’s information systems to be more susceptible to improper access, use, and/or loss of
   sensitive information.

Recommendations
1. Re-certify each financial system by reassessing each financial systems risk assessment and security
   plan and ensure that they comply with NIST and DOT guidance. Conduct a ST&E that complies with
   NIST guidance and ensure that the ST&E results are properly documented to support any tests
   deemed as passing.

2. Review FTA IT-related positions to identify staff and contractors who require background checks.
   Once complete, conduct the appropriate background check commensurate with the position’s
   sensitivity.




  EXHIBIT B. KPMG AUDIT REPORT ON COMPUTER SECURITY AND CONTROLS OF FTA
  GRANT MANAGEMENT AND PAYMENT SYSTEMS                                                                          5
                                                                                                                   14
                                                                                    DOTS, ECHO, and TEAM
                                                                                     General Controls Review

   Weak system access controls may lead to unauthorized usage of FTA financial systems

Access controls are important because they restrict access to computer resources to personnel with a valid
need and prevent unauthorized personnel from using the system. FTA management has not developed
detailed polices and procedures to guide system administrators and the system owners to effectively grant,
monitor, and terminate access, including physical access. The lack of a structured process to grant,
monitor, and terminate user access increases the risk that unauthorized users may be able to create,
modify, or delete financial data within the system or allow sabotage of equipment.

We found that two-thirds of FTA terminated employees during fiscal year 2003 were not removed in an
timely manner, password controls for DOTS were not consistently enforced, and physical access to the
DOTS and ECHO data center is not adequately controlled. Documentation supporting authorized user
access and acknowledgement of the system rules of behavior regarding proper and prohibited conduct was
also incomplete, making the monitoring and revalidation of employee access difficult to enforce.

The results of our vulnerability scanning showed five high and seven medium risks that need to be
addressed for TEAM and DOTS. The five high and seven medium vulnerabilities existed because
management did not ensure that certain parameters were enforced and that updated software versions and
software patches were current. We were unable to conduct an analysis of ECHO due to the fact that the
ECHO application is antiquated and the platform it operates on is outdated, which does not permit our
scanning tools to analyze the system. Obsolescence may expose ECHO to security risks since third-party
system support is not available.


   Terminated employees. User accounts for terminated FTA employees are not being removed from
   TEAM in a timely manner. We obtained a list of 22 employees who left the organization in FY 2003.
   Of those 22 user accounts associated with the terminated employees, 17 user accounts were not
   disabled immediately upon termination to prevent further access to the system. By not immediately
   removing access for separated employees, FTA faces increased exposure to malicious acts by
   disgruntled employees and increased risk of unauthorized access. We did note that once the
   information regarding the active accounts was provided to FTA, the active accounts were disabled.

   User authorization. User access forms that document authorized access levels were incomplete or not
   retained. For DOTS, user authorizations were not consistently required as only three out of seven
   users we sampled had the proper user access request forms. For ECHO, no documentation is
   maintained regarding the granted user access. For TEAM, we found instances where a standard user
   form and informal email requests were used. However, the standard form is inconsistently used and
   the email requests for authorizations to TEAM are not kept on file for the life of the account. Without
   a historical record of user account authorization forms, system administrators may not be able to
   determine if user access is valid and necessary.

   Rules of Behavior. “Rules of behavior” that document an acknowledgement of prohibited employee
   conduct were not always completed or retained. For DOTS, rules of behavior are used inconsistently
   as five out of the seven users we sampled did not have acknowledgement forms. With respect to
   TEAM, users are not being asked to complete a rules of behavior document before gaining access to
   this system. By not requiring users to sign rules of behavior before accessing a system, the risk exists


  EXHIBIT B. KPMG AUDIT REPORT ON COMPUTER SECURITY AND CONTROLS OF FTA                                        6
  GRANT MANAGEMENT AND PAYMENT SYSTEMS
                                                                                                                     15
                                                                                      DOTS, ECHO, and TEAM
                                                                                       General Controls Review

   that users may unwillingly divulge or compromise information due to a lack of security awareness and
   make it difficult to hold users accountable for their actions.

   Physical Access. The FTA is unable to determine whether the current DOTS and ECHO data center
   access list reflects a complete list of persons with access to the data center because (1) the list is not
   updated on a regular basis and (2) the cipher lock combination is not changed on a periodic basis. By
   not periodically updating the access list to the DOTS and ECHO data center, the FTA cannot have
   reasonable assurance about the personnel who are knowledgeable of the cipher lock combination, and
   thus, have access to the data center. Coupled with the fact that FTA cannot change the cipher lock
   combination since the key to do so is missing, no practical means exists to ensure access to the DOTS
   and ECHO data center is controlled.

   Vulnerability Assessment for FTA Financial Systems. We used a commercial scanning tool to
   evaluate logical access controls over the host platforms for the DOTS and TEAM systems. As a result
   of our internal scanning test work for the DOTS system, we identified five high risk and three medium
   risk vulnerabilities. We also identified four medium risk vulnerabilities related to the TEAM system
   platforms. These vulnerabilities present a potential opportunity for users to gain unauthorized access
   to the systems platforms and modify or destroy information. We shared our detailed results with FTA
   officials but did not describe them in this report because the details could allow the vulnerabilities to
   be exploited. However, we noted that FTA took the recommended corrective actions toward fixing
   the vulnerabilities identified.

   Commercial scanning tools are limited in their ability to audit and evaluate vulnerabilities on the
   ECHO platform because it is outdated. Inherent weaknesses exist due to the FTA’s reliance on an
   obsolete system and telecommunications. The ECHO application lacks an automated systems
   management capability such as system-based audit logging. Due to the lack of system-based audit
   functionality for the ECHO system, no automated controls exist to ensure adequate oversight over
   data files and processing operations for ECHO. Additionally, FTA reliance on outdated software
   makes ECHO more difficult to maintain. Obsolete systems are reliant on the knowledge of key
   individuals and lack vendor/third-party support, system and security patch accessibility, and effective
   disaster recovery options, which increases FTA’s risk of denial of service if malicious attacks or
   unforeseen events occur.

Recommendations
   1. Develop procedures to periodically revalidate user access and to monitor security violations for all
      FTA financial systems. Procedures should include a process to terminate users in a timely and
      effective manner.

   2. Document and monitor the user access process for the FTA financial systems and secure physical
      locations. For system access, this should entail the use of formal access request forms and rules of
      behavior for all users to complete before they access the system. These forms should be
      maintained for the period of time that the user account is active.

   3. Implement the appropriate software versions, patches, and the necessary system parameters to
      prevent the high and medium risk vulnerabilities for the DOTS system.



 EXHIBIT B. KPMG AUDIT REPORT ON COMPUTER SECURITY AND CONTROLS OF FTA
                                                                                                                 7
 GRANT MANAGEMENT AND PAYMENT SYSTEMS
                                                                                                           16
                                                                            DOTS, ECHO, and TEAM
                                                                             General Controls Review

 4. Conduct a cost/benefit analysis to determine whether ECHO should be replaced or upgraded to a
    standard platform that will permit FTA management to audit and oversee system activities and
    security functions, and to obtain vendor/third-party support.




EXHIBIT B. KPMG AUDIT REPORT ON COMPUTER SECURITY AND CONTROLS OF FTA
GRANT MANAGEMENT AND PAYMENT SYSTEMS                                                                   8
                                                                                                                    17
                                                                                     DOTS, ECHO, and TEAM
                                                                                      General Controls Review

   Weaknesses exist in the change control process for FTA financial systems.

Without an adequate change control process, unauthorized personnel can load and execute software on a
system, the system is more vulnerable to unexpected software interactions, and to software that may
subvert or bypass security controls. We found a lack of segregation of duties in the FTA financial system
change control process. For example, the ECHO system administrator is responsible for all aspects of the
ECHO change control process with no management oversight of staff activities. For DOTS, ECHO, and
TEAM, system changes are not thoroughly documented and the construction of test plans and
documentation of test results are not developed. Testing around DOTS and ECHO modifications is also
informal and not segregated, and is only conducted by one or a few individuals.

These weaknesses exist because FTA management has not complied with DOT and NIST guidance
requiring adequate system change controls and segregation of duties. Lack of a formal, standardized
change management process could result in unauthorized and/or inaccurate program changes being
introduced into the system, which can lead to unplanned system downtime, fraud, abuse, corrupt data, or
denial of service.

   Segregation of Duties. Segregation of Duties refers to dividing roles and responsibilities so that a
   single individual cannot subvert a critical process. A lack of segregation of duties exists in the change
   control process between the development and implementation of software changes. For DOTS and
   ECHO, only the system administrator controls the change management process including system
   programming and code migration into the production environment. Although this is not his primary
   duty, we noted that the TEAM programmer also has the ability to upload code into the production
   environment.

   System Change Procedures. System development procedures and standards are key management
   controls. Lack of a formal, standardized, and authorized development processes could result in
   unauthorized and potentially malicious computer program changes being implemented into the
   production environment that could lead to corruption of data or system downtime. System changes
   are not sufficiently documented to support an audit trail and the construction of test plans and
   documentation of test results are not developed for FTA financial systems. Additionally, testing
   modifications are not formally documented and structured.

Recommendations
1. Review the existing roles and responsibilities for FTA IT staff, and develop and document a policy
   that identifies and segregates incompatible duties. Where duties cannot be properly segregated due to
   resource constraints, FTA management should institute compensating controls that include system
   audit logging and supervisory review of the activity on a periodic basis.

2. Develop policies and procedures that (1) detail the development and construction of test plans,
   document test results, deliver and implement software, and require approval by management for all
   financial applications, (2) govern who should have access to the financial system and code, and (3)
   implement a mechanism to track this access on a regular basis.




EXHIBIT B. KPMG AUDIT REPORT ON COMPUTER SECURITY AND CONTROLS OF FTA
GRANT MANAGEMENT AND PAYMENT SYSTEMS                                                                            9
                                                                                                              18
                                                                                   DOTS, ECHO, and TEAM
                                                                                    General Controls Review

   Service continuity planning is not adequate to sustain operations in the event a service
   disruption occurs.

The FTA has not developed adequate contingency plans for its financial systems. First, the FTA has not
conducted a business impact analysis (BIA), the fundamental first step in planning for contingencies. The
existing contingency plans do not document procedures that provide accurate and detailed IT system
backup and recovery if a disaster was to occur and the process has not been tested. In addition, key
person dependencies exist that impact service continuity, with no backup personnel adequately trained to
handle daily operations.

The FTA has not followed DOT and Federal guidance regarding service continuity. The FTA noted it has
limited funding to dedicate toward service continuity issues such as providing necessary human resources
to compensate for key dependencies. However, without proper contingency planning controls, the FTA
exposes itself to an increased risk of service disruption and the possibility of not meeting mission
requirements specified in the Cash Management Improvement Act of 1990.

   A Business Impact Analysis has not been performed. The BIA is a key step in the contingency
   planning process. The BIA is used to determine maximum allowable downtimes and appropriate
   response measures for systems as part of the contingency planning process, and enables the FTA to
   fully characterize the system requirements, processes, and interdependencies and use this information
   to determine contingency requirements and priorities for limited resources. We noted that none of the
   FTA financial systems had conducted this step prior to drafting their contingency plans.

   Contingency Plans. Contingency plans do not provide accurate and detailed data backup and recovery
   information, and the contingency plans have not been tested. Disaster recovery roles are not defined
   or described. Furthermore, no responsibilities or duties are documented for each role. There were no
   notification procedures or contact information for the key personnel involved with disaster recovery.
   Detailed procedures regarding the backup, recovery, and restoration of FTA financial systems are not
   documented. Although FTA states that hotsite facilities at Computer Associates, Inc. exist for DOTS
   and ECHO, the DOTS backup hardware currently resides at the primary processing site. While
   ECHO equipment is located at the alternate processing site, it does not include all of the hardware
   necessary to restore operations. Additionally, the disaster recovery facility for DOTS, ECHO, and
   TEAM are approximately 25 miles apart and may not be adequately separated in case of a large scale
   disaster affecting the entire geographical region.

   Personnel Continuity and Knowledge Management. Dependencies exist that impact service
   continuity. DOTS and TEAM rely on contractors to perform the day-to-day management of these
   systems including data backup and contingency planning. This creates a dependency for FTA.
   Without adequate documentation regarding data backup and disaster recovery procedures, the FTA
   risks losing its system operations knowledge base if these contracts are not renewed, are prematurely
   terminated, or if the individuals cease to work for their contract employer. For ECHO, the system
   administrator is responsible for various aspects of system operations including system administration,
   change management and access control. No trained backup exists to assume these duties in the event
   the system administrator is unavailable.



EXHIBIT B. KPMG AUDIT REPORT ON COMPUTER SECURITY AND CONTROLS OF FTA
GRANT MANAGEMENT AND PAYMENT SYSTEMS                                                                     10
                                                                                                              19
                                                                                   DOTS, ECHO, and TEAM
                                                                                    General Controls Review



Recommendations
1. Conduct a BIA as a part of the contingency planning process. The BIA should consider the critical
   resources, the maximum allowable outage, the measured impact, and the recovery strategy.
   Additionally, as part of the BIA recovery strategy, as well as part of the risk assessment, FTA should
   consider safeguards for service continuity that take into account geographical location to minimize
   threats occurring simultaneously at both the primary location and the disaster recovery site.

2. Document backup and disaster recovery procedures that include personnel roles and emergency
   notification. The procedures should detail step-by-step processes that personnel, with a reasonable
   system understanding and IT background, can use to reestablish continuity of service when
   disruptions occur.

3. Test the backup and disaster recovery processes to ensure that FTA management and other critical
   parties understand their recovery roles and responsibilities, and that the system can be restored as
   planned.

4. Designate personnel, with a reasonable ECHO system understanding and IT background, to serve in a
   backup capacity. Properly document contractor day-to-day activities and operating procedures for
   DOTS and TEAM.




EXHIBIT B. KPMG AUDIT REPORT ON COMPUTER SECURITY AND CONTROLS OF FTA
GRANT MANAGEMENT AND PAYMENT SYSTEMS                                                                     11
                                                                 Memorandum
            U.S. Department
            of Transportation
            Federal Transit
            Administration


Subject:     INFORMATION: Response to Draft Report on                    Date:

             Computer Security and Controls of Grant Management
             and Payment Systems
  From:      Susan Knisely                                             Reply to
                                                                       Attn. of:
             Senior Director, Office of Transit Safety
              and Security

      To:    Theodore P. Alves
             Assistant Inspector General for Financial
              and Information Technology Audits


             The Federal Transit Administration (FTA) has reviewed the Office of Inspector General (OIG)
             Draft Report on Computer Security and Controls of Grant Management and Payment Systems;
             Project No. 03F3012F000.

             In general, FTA concurs with the report recommendations. The following are FTA’s comments
             that address specific actions taken and include target dates for planned actions to implement the
             recommendations.

             OIG recommends that FTA:

             1. Test and evaluate security controls in TEAM, ECHO and DOTS and develop more
                comprehensive risk assessments and security plans for all three systems.

             FTA Comment

              FTA agrees with the OIG recommendation. The last risk assessment for TEAM-Web system was
              completed in September 2001 as part of the fiscal year 2002 system Certification and Accreditation
              process. FTA is required to repeat this process for fiscal year 2005 operations. FTA will request
              funding, complete a more comprehensive risk assessment and update the security plans for the
              fiscal year 2005 TEAM-Web Certification and Accreditation process.

              FTA has modified the security plan for ECHO and DOTS to include the identified missing
              elements and developed a process to assess completeness. In addition, the safeguards and
              vulnerabilities have been incorporated into the risk assessments. Additional funding has been
              requested for FY 2004 to cover the costs associated with more comprehensive risk assessments
              and security plans for these systems.
2. Complete the appropriate background checks on the Federal and contractor employees
   KPMG identified.

FTA Comment

FTA agrees with the OIG recommendation. FTA will work with their Human Resources Office
to get a current status of background investigations for individuals cited in the audit report and to
determine the level in which the investigations need to be raised to meet the OIG
recommendations in this area. Also, additional funding has been requested for FY 2004 to cover
the costs associated with the higher levels of background investigations.


3. Develop procedures for granting, removing, and periodically revalidating user access, and
   enforce use of access request forms and security agreements (Rules of Behavior) before
   granting system access.

FTA Comment

FTA agrees with the OIG recommendation. FTA has developed and implemented new procedures
for removing users. This process is using the TEAM-Web change management database to record
all employee removal requests. The change management system will notify key TEAM-Web help
desk staff if the removal has not been accomplished on the day of separation. The transactions for
the new process come from the FTA employee tracking system. FTA plans to install an automated
procedure to allow users to sign/attest the “Rules of Behavior” statement at logon. FTA plans to
put this procedure in place for the fiscal year 2004 operations.

FTA will implement a policy for ECHO and DOTS requiring all users of these systems to return
a signed “Rules of Behavior” that acknowledges the users’ responsibilities for using the systems.
Users who do not return a “signed” Rules of Behavior document within a prescribed period will
automatically have their user accounts disabled until such time the document is received. This
procedure will be implemented beginning FY 2004.


4. Regularly scan FTA financial system computers for vulnerabilities and timely install software
   patches provided by the manufactures or reconfigure software settings.

FTA Comment

FTA agrees with the OIG recommendation. The TEAM-Web software patches are tracked using
the Change Management System, and the server checklist process. There was one non-critical
patch not applied at the time of the audit. This has been corrected and procedures are in place to
apply non-critical patches weekly. Critical patches have always been applied immediately. FTA
has placed a request in the Office of Information Technology change management system to
include the TEAM-Web servers in the Departmental “Found Stone Found Scan” process. This is
a high priority request and the tracking number is 812. Once implemented, the TEAM –Web
servers will be scanned weekly.
The DOTS patches have been applied on a regular basis with the exception of a later version of
Secure Sockets Layer (SSL), which is needed to restrict client access. The existing version has
been taken off-line and the new version is being shipped and will be installed upon receipt. Since
ECHO currently utilizes obsolete software, FTA plans to migrate it to another platform that has a
more secure environment during FY 2004.


5. Enhance physical access controls over the ECHO and DOTS computer room by maintaining
   a list of individuals authorized to enter the data center and changing the combination to the
   lock on a periodic basis.

FTA Comment

FTA agrees with the OIG recommendation. FTA has installed a logbook on the computer room
door requiring all staff to sign in and out when entering the computer room. In addition, only the
Financial Systems staff has access to the code for entry and must be contacted to provide entry.
The Administrative Services office is making arrangements with the locksmith to change the
cipher lock and a master key will be provided for use as a backup.


6. Increase management oversight of, and develop documented procedures for, ECHO system
   maintenance work.

FTA Comment

FTA agrees with the OIG recommendation. FTA originally established a Systems Maintenance
Manual for the ECHO system which covered the functional roles and responsibilities for the
system. However, the document was not kept updated to reflect the existing configuration. FTA
will develop and document an ECHO System Administrator manual to include specific security
and operating procedures related to the systems administrator’s day-to-day activities and role.


7. Require that test plans, test results, and user approvals for ECHO and DOTS system changes
   be documented.

FTA Comment

FTA agrees with the OIG recommendation. FTA has developed policies and procedures that
detail the development and construction of test plans, documentation of test results, delivery and
implementation of software and approval by management for all system and application software
for DOTS. ECHO software is obsolete and applications will be migrated to a web-based and
Oracle environment in FY 2004. The Financial Systems Office staff has implemented a software
application to support configuration management activities in monitoring and tracking all work
and system change requests.
8. Enhance the contingency plans with a business impact analysis and detailed disaster recovery
   procedures including personnel roles and emergency notifications for all three systems.

FTA Comment

FTA agrees with the OIG recommendation. FTA will include a business impact analysis in the
TEAM-Web disaster recovery plan. The existing TEAM disaster recovery process includes roles
and emergency notification procedures. These procedures were used during the last hurricane
“Isabel.” The TEAM-Web system was up and operational for the entire period of the hurricane
disaster that closed the Federal government.

FTA will perform a Security Test and Evaluation (ST&E) process that complies with NIST 800-26
and properly document the results for ECHO and DOTS. FTA also will document the disaster
recovery procedures to include step-by-step details for setting up the hardware, software and
telecommunications connectivity.


9. Test disaster recovery processes for ECHO and DOTS, and determine whether the recovery
   site is distant enough to ensure continued operations in case of large-scale disasters.

FTA Comment

FTA agrees with the OIG recommendation. FTA has designated a DOT facility as the interim
hotsite for both ECHO and DOTS. The backup equipment for ECHO has been relocated to this
facility, and the backup equipment for DOTS has been ordered and will be relocated upon receipt
by FTA. Additional funding has been requested to complete the connectivity and other
requirements identified to convert the offsite facility to a hotsite. FTA plans to utilize the
Department of Transportation’s (OST) COOP site.
